No. 20-18

 

IN THE

Supreme Court of the United States

ARTHUR GREGORY LANGE,

Petitioner,
Vv.

STATE OF CALIFORNIA,
Respondent.

ON WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
FIRST APPELLATE DISTRICT

REPLY BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,965 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printiyfg Co., Inc.
